                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: I06020003                                                     I         Page 1 of 1



                We received information from a complainant that a university1was charging graduate
         student and post-doctoral salaries to NSF awards in violation of OMB Circular A-21 by
         charging them through a specialized service facility (A021 llJ.44).2We determined that: the
         university had fully disclosed the charging method in its proposals to NSF; had previously
         determined that this method of charging salaries was inappropriate; had discontinued the
         charging method; has been reviewing the charges to determine whether the government had
         been overcharged (pursuant to a compliance plan instituted as part of the settlement of a
         previous case); and has found so far that the government was undercharged. It therefore
         appears that there were no misrepresentations made to NSF and no loss suffered by NSF.
         Accordingly, this case is closed.




NSF 01G Form 2 (11/02)
